No. 20-102
3Jn t\)£ Supreme Court of tfje fHmteb States;

CHRISTOPHER HADSELL,
Petitioner,
-vBARRY BASKIN, et al.,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for rehearing contains
2,978 words, excluding the parts of the petition that are exempted by Supreme Court Rule
33.1(d).
I declare Under penalty of perjury that the foregoing is true and correct.
Executed on November 9, 2020.

Christopher Hadsell, Petitioner

